<html>
<title> - LEGAL HOOLIGANISM--IS THE YUKOS SHOW TRIAL FINALLY OVER?</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


             


111th Congress                               Printed for the use of the 
2d Session             Commission on Security and Cooperation in Europe      
_______________________________________________________________________                                            
                                             
 
                        LEGAL HOOLIGANISM--IS THE 
                        YUKOS SHOW TRIAL FINALLY 
                              OVER?

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                           SEPTEMBER 29, 2010


                            Briefing of the
            Commission on Security and Cooperation in Europe
_______________________________________________________________________  

                            Washington: 2015






                                     

            Commission on Security and Cooperation in Europe
                     234 Ford House Office Building
                          Washington, DC 20515
                              202-225-1901
                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e0d1d0d0b2e030f07024006011b1d0b40090118">[email&#160;protected]</a>
                          http://www.csce.gov






                      Legislative Branch Commissioners

             SENATE                                      HOUSE

BENJAMIN L. CARDIN, Maryland,              ALCEE L. HASTINGS, Florida,
  Chairman                                     Co-Chairman
CHRISTOPHER DODD, Connecticut              EDWARD MARKEY, Massachusetts
SAM BROWNBACK, Kansas                      LOUISE McINTOSH SLAUGHTER,
SAXBY CHAMBLISS, Georgia                     New York
RICHARD BURR, North Carolina               MIKE McINTYRE, North Carolina    
ROGER WICKER, Mississippi                  G.K. BUTTERFIELD, North Carolina         
JEANNE SHAHEEN, New Hampshire              JOSEPH PITTS, Pennsylvania                   
SHELDON WHITEHOUSE, Rhode Island           ROBERT ADERHOLT, Alabama             
TOM UDALL, New Mexico                      DARRELL ISSA, California
 

                       EXECUTIVE BRANCH COMMISSIONERS

                    MICHAEL POSNER, Department of State
                 ALEXANDER VERSHBOW, Department of Defense

                                  (ii)


          
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organizations, and private individuals from participating 
States. The website 
of the Commission is: <www.csce.gov>.

                                 (iii)
  
                                     
 
        LEGAL HOOLIGANISM--IS THE YUKOS SHOW TRIAL FINALLY OVER?

                                  ------------

                               September 29, 2010

                                  COMMISSIONER

                                                                   Page

Hon. Alcee Hastings, Co-Chairman, Commission on Security and 
Cooperation in Europe..................................................
                                                                      1

                                    WITNESS

Vadim Klyuvgant, Lead Defense Attorney for Mikhail Khodorkovsky........
                                                                      1

                                  PARTICIPANTS

Kyle Parker, Policy Advisor, Commission on Security and Cooperation in 
Europe.................................................................
                                                                      7
Robert Herman, Freedom House...........................................
                                                                      7
Ron McNamara, Policy Advisor, Commission on Security and Cooperation in 
Europe.................................................................
                                                                     11

                                  (iv)









        LEGAL HOOLIGANISM--IS THE YUKOS SHOW TRIAL FINALLY OVER?

                              ------------

                           September 29, 2010

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 2:00 to 3:30 p.m. EST in 1539 Longworth 
House Office Building, Washington D.C., Congressman Alcee Hastings, Co-
Chairman, presiding.
    Mr. Hastings. Ladies and gentlemen, on behalf of the U.S. Helsinki 
Commission, I want to thank you for joining us this afternoon in a very 
important briefing.
    Today we look at what is now the second Yukos trial of Mikhail 
Khodorkovsky. My hope is that by shedding a light on this case, we will 
not only see the gross injustice committed against Mr. Khodorkovsky, 
but also against the entire Russian judicial system. The trial against 
him and Yukos began in 2003 as what many saw to be a politically 
motivated attack by the Kremlin. After almost a decade, the case 
against Mr. Khodorkovsky has evolved into a complete show trial where 
the accusations against the defendant have become absurd. Although we 
would entertain the arguments of the prosecution, today, we find 
ourselves unable to do so.
    Despite recent rhetoric on human-rights reform from the Russian 
president, very little has yet been accomplished. So it is with concern 
we look towards Russia's future with concern for a fair hearing for Mr. 
Khodorkovsky and concern for a society based on the rule of law. It is 
my belief that the case against him is not only the trial of one man, 
but a trial of the integrity of Russia's courts and judges.
    With that, my thanks to Freedom House, who is assisting and 
sponsoring this briefing with the Helsinki Commission. But I'd like to 
welcome our esteemed guests, Vadim Klyuvgant and Anton Drel. Vadim has 
served as the lead trial lawyer on the defense team for Mr. 
Khodorkovsky. Before practicing law, he served as a member of Russia's 
upper house of parliament. Mr. Drel has also served as Mr. 
Khodorkovsky's lawyer and is a graduate of Moscow State University Law 
Department.
    Thank you, and with that, Vadim, you have the floor.
    Mr. Klyuvgant. Please allow me, on behalf of Mikhail Khodorkovsky's 
team of lawyers. We thank you for the kind invitation extended to us to 
brief the high commission and those interested in what's going on at 
the trial. We see this as a very high honor.
    And also, at the outset, I would like to thank the distinguished 
human rights organization, Freedom House, both for us and organizing 
this briefing; and, much more importantly, for the assistance they 
generously provided to us as we have sought to defend the interests of 
our house.
    Later in my remarks I intend to, once again, mention why we need 
assistance, why such assistance is important to us, have long come from 
human rights organizations, whether multinational--U.S.-based, European 
or Russian human rights organizations.
    Ladies and gentleman, I've been greatly impressed by the title 
assigned to this meeting today. I would like to give credit to the 
optimism of the others who seem to believe that this trial will 
actually come to an end at some point. Hence, our vision--when I say 
``our,'' I'm referring to those participating on trial on a pretty much 
daily basis in Russia--is unclear, and we, quite frankly, do not quite 
see this trial coming to any kind of end whatsoever.
    What can be referred to as a ``second trial'' for both. It's a 
formality, if you will. The reason I'm saying that the second trial is 
not a genuine second trial is that the Yukos case, more broadly which 
can be described as a legal massacre, is something that started as the 
distinguished co-chairman said almost seven years ago in 2003, has been 
going on. Whether it's trial number one or trial number two does not 
really matter that much, because this case has only been gathering 
momentum and, at this point it's not really clear to see it will ever 
come to an end. So far, it's only been gathering momentum and getting 
deeper and worse.
    A number of those who become hostages to this legal massacre, and 
those who've been sacrificed, I'm not referring to any kind of physical 
situations, but, be that as it may, many, many lives, and an 
increasingly large number of lives have been broken in this legal 
massacre.
    So what is formally referred to as a second trial is slowly moving, 
dragging. It's a legal proceeding, a courtroom procedure. Whether or 
not there will be a third trial, or even another one, is not yet known. 
But we've seen this so-called second trial as part and parcel of what 
was unleashed more than seven years ago, and what constitutes a legal 
massacre.
    We don't yet know the outcome and the possible implications of the 
second trial. Speaking of the specific results of this trial, in legal 
terms, as far as our defendants are concerned, the worst-case scenario, 
under the Russian law, is that a new sentence may be handed down that 
can leave them behind bars for another 15 years.
    It was driven by politics and for Russian considerations, the case 
remains the same. What is happening in that courtroom now is, as 
before, driven by political considerations and those of Russia.
    There is yet another factor and there is yet a third motivation for 
what is going on, and that concerns individuals who took office 
together and started all this many years ago. I'm quite sure that right 
now they are sitting down and thinking as to what the implications 
might be for them, personally, of this case finally coming to its end. 
Each of these is crying and hedging their bets and figuring out what 
the implications will be.
    However, it is already increasingly clear what the world thinks of 
what is happening, has transpired in the decisions made by and 
statements made by various political bodies, and governmental bodies. 
Which may lead to, again, more human rights. Probably the Russian 
public and the Russian Federation will offer a similar assessment to 
those already voiced.
    And as the defense--and by defense I mean not only the attorneys, 
but also the defendants themselves, as we try to fight in the courtroom 
in Moscow for lives that have largely been already ruined, but lives 
that others are trying to continue to ruin and sustain a defense 
against those efforts.
    As we're doing that, we're setting yet another goal, which in a way 
transcends and which reaches beyond the efforts to salvage the human 
rights goal, and that goal is our efforts to expose and to not leave 
unpunished the corrupt and criminal behavior of those government 
officials and public servants who, through using a vast array of these 
methods which have involved threats of all kinds of criminal action, 
falsification, forgery, and of torture, have used all of that to try 
and execute the plan to legally massacre.
    We--and when I say we, include Mikhail Khodorkovsky--view this kind 
of behavior as criminal. We also believe what we're doing in court is 
we're not defending the innocence, we're not holding the innocence of 
the defendant. Rather, we are trying to prove the criminal nature of 
the actions taken against them.
    That this case, this situation is not going to be domestic error of 
the Russian Federation. The reason being that what's at stake here is 
universal, fundamental human rights values, values that underlie the 
very foundation of Western civilization. Among those values, I would 
primarily call your attention to the freedom of the individual, and the 
law, as the body of laws and as a major component of human 
civilization.
    As my personal opinion to emphasize that what we have in mind is 
not what is referred to as legal hooliganism, because in Russian and 
Russia the word ``hooliganism'' refers to the radical instances of 
extreme--mistreatment. Those that are sporadic not systemic. What we 
have here is a systemic effort to trample underfoot the very 
fundamental values of civilization.
    And we have been mentioned by the veterans the more courageous and 
more lawyers--on these efforts of the country.
    What is especially tragic and traumatic is that such insistence 
grave as they are, have been made against a background of rhetoric and 
lip service paid to the rule of law. Fortunately, the authorities 
started talking about the rule of law, and seeing it as supreme value 
was hailed by the rest of the world, and they were praised for trying 
to establish the rule of law in Russia. It is especially alarming--that 
what's happening is happening in that very background.
    That is exactly why we believe that the case at hand is not a 
domestic affair for Russia, but rather it is an issue, a problem that 
should be put on the agenda of an international context, and 
international relationships, one party to which is the Russian 
Federation, the other being other countries at every and all levels of 
international context.
    We have referred to the trial of the city of Moscow as a sham 
trial, a pretend trial, if you will, because while appearances are 
being and things are allegedly occurring in the context of a trial, it 
is in fact just a smokescreen, a cover-up for people's lives being 
destroyed.
    To begin with, the charges are fake and pretend charges, because 
essentially they accused the defendants not only of something that they 
never did, but, as a matter of fact, they're self-defeating because 
what they have accused the defendants of is something that was simply 
impossible, to never having done.
    I'll be happy to give you a certain level of detail and explain 
specific questions of why I'm saying this. I will say that the sham 
nature of the charges that was quite consistent with the quality of the 
so-called evidence produced by the prosecution, which had been produced 
using forgery, falsifications, distortion on the facts and the forgery 
of documents.
    The methods that the prosecution has employed to gather this so-
called evidence have involved threats, blackmail, torture and 
prosecution, and threats of prosecution towards just about everybody 
that they--including, of course--accountants, lawyers and witnesses so 
as to force these individuals to provide information that could be used 
by the prosecution in building their false case.
    By that token, this case is yet again not a domestic affair of the 
Russian Federation. Because the methods in putting pressure on those 
arrested and all kinds of similar techniques are not only being used 
against Russian citizens, but against foreign nationals, including U.S. 
business and against foreign corporations.
    I will only cite one example out of a vast number, so it is 
available. I will simply mention the name of the well-known company, 
Pricewaterhouse, and what happened to it in Russia. When the management 
of the Moscow--some individuals--Pricewaterhouse, most of those 
individuals, who were foreign nationals, had their arms twisted in a 
very, very cruel way and under threat of criminal prosecution, and the 
threat of destroying the company's business in Russia to get them to 
sign what the prosecution needed them to sign. The statement that ended 
up being signed was a false statement and we have plenty of evidence to 
prove that the statement was forced out and that it was given under 
tremendous pressure.
    There has been many propaganda train employed if you will, that has 
been used to justify what is being done to Khodorkovsky, and that is 
that he is being equated with a rich protector the likes of whom would 
be Madoff; and the authorities will claim that individuals like that 
have been and are prosecuted everywhere in the world.
    The statement is untrue. Again if the right question as to why it 
is untrue, I'll be happy to explain the details. It's a completely 
different situation, one in which there's not a single inference of not 
only criminal behavior, but even unlawful behavior--even misdemeanor 
type of behavior on the part of our defense. These so-called facts have 
been copied and falsified.
    Therefore, the consequences and implications of the Khodorkovsky 
case and the Yukos are very far reaching. Of course, they operate what 
will happen to the victims and the hostages of that trial for Mikhail 
Khodorkovsky.
    We think also the consequences and implications of this case are 
also of very direct relevance for the prospects of my country--the 
Russia Federation--whether we'll use the buzz word organization to 
refer to those prospects or you can just say the future of Russia. The 
choice of words is not important in this case.
    This case has ramifications for the business community, for 
investors, for Russian international partners and, of course, for the 
United States as one of Russia's international partners.
    Again, the Khodorkovsky and Yukos case presents an impediment and 
an obstacle for what is long overdue in the Russia-U.S. relationship. I 
prefer more to talk about improving and enhancing the relationship. 
This case creates a major impediment--to be done. Simply, I cannot 
visualize a successful effort to improve this relationship with this 
case remaining what it is and where it is.
    And yet, another role that this case plays is that of an indicator 
as to what is happening in Russia and which direction it is moving. 
Whether this case will end justly or unjustly will be a very clear 
signal of where Russia is headed.
    That is why we have said that it is of great importance that the 
national--public voice its opinions in the sense that the issue must be 
put on the agenda of international context in Russia and the rest of 
the world at any and all levels. It should be on the agenda of both 
public and private diplomatic interactions. A report from human rights 
NGOs all over the world--Europe, in the Americas, everywhere--is very 
badly needed.
    These things are critically important if the problem that we are 
discussing here today is to see some kind of a fair ending. We believe 
that the United States, as a major partner of Russian Federation, is in 
a position to make a significant contribution to this. Both through 
parliamentary action and through the channels used by the executive 
branch of the United States and on the part of the civil society of the 
United States, which is very well known for being vigilant, active and 
invariable--intolerant--to the fundamental human rights violations.
    As the Helsinki Act was signed in 1975, yours truly was still a 
fairly young individual. Yet, I was very aware and watchful of this 
kind of development. As a matter of fact, in 1975, I enrolled in law 
school and all those things I found extremely interesting and 
important.
    And I remember the great importance--including in my then country, 
the USSR--attached to the so-called third basket, which of course, 
incorporated human rights issues that was very heavily discussed as 
part of the framework of the Helsinki Act. I remember very vividly how 
things were moving and improving along the lines of the Helsinki 
process and was a better human rights situation in what was then a 
superpower--not just a superpower, but an evil power, an evil empire, 
on that felt extremely strong. Yet, it was listening to what was being 
said as far as the Helsinki process and improving its track record on 
human rights.
    I have to be completely sincere and honest--why what happened--what 
was capable of happening back in the 1970s did not--set--itself in the 
context of the 21st century. Now that we are in Congress--in U.S. 
Congress--has the context of this still fairly new initiative--that of 
presenting the Russian-U.S. relationship.
    I believe it will serve our national interests and we need it very 
badly and it is very important to us.
    Thank you very much for your attention.
    Mr. Hastings. Thank you all so very much.
    First, to underscore what you have said about the international 
implications, when Yukos was taken over, there were investors from 
around the world and a lot of them from America. It's estimated that 
upwards of $7 billion was lost by international investors, including 
those in the United States. That, in my judgment, underscores your 
feelings regarding what I believe true too, to be that this is an 
international matter of substantial consequence that should have 
continued to be addressed, as it has been in other governments--two 
that come to mind are the Swiss courts and the Dutch courts have 
indicated that they felt it was illegal.
    You know, Vadim, either 15 or 16 years ago would have been my 
second visit to Russia. Like you, I felt the effects of glasnost and 
the changes that were taking place. Like many Americans and other 
citizens around the world, I felt that there would be progress in that 
third basket from the Helsinki Accords.
    Not by myself, but with three other colleagues--one a Democrat and 
two other Republicans--we had a meeting with Yury Luzhkov, who was then 
and until two days ago, the mayor of Moscow. When I met you today, I 
told you that I was personal friends with Gennady Solezhno. Gennady 
Solezhno was in the Duma and I became good friends.
    And over the course of that time, I personally have witnessed--
having met regional officials and countless others--and recognize now 
the government has changed and I think for the worse.
    I want to say two further things: In reviewing the testimony of an 
earlier hearing held by Sen. Wicker and attended by the chairman that 
I'm co-chairman of the CSCE, Sen. Cardin, remarks were made by Sen. 
Wicker wherein he quoted your client. Footnote right there for you and 
Freedom House and for the brave and courageous lawyers that are in 
pursuit of fairness and justice. You are now noticed and you are 
supported by all of us that believe that all citizens of the world are 
entitled to human rights.
    Sen. Wicker quoted Mr. Khodorkovsky, which is almost poetry. He 
says, and I quote your client: ``I really do love my country--my 
Moscow. It seems like one huge apathetic and indifferent anthill, but 
it's got so much soul. Inside I was sure about the people and they 
turned out to be even better than I thought.''
    I read recently, that in spite of that glass enclosure that he is 
in during this trial, with those of you that are there, that at least 
having served several years in a Siberian prison, that his spirit is 
not broken.
    Please convey to him that the law is our will to continue to point 
out the injustice that he and Mr. Lebedev and your other clients are 
experiencing.
    But then, Sen. Cardin closed with what I close with here today--
just quoting him--he says, ``I think that Sen. Wicker and I both 
believe''--and I'll now add myself to the list; I was not at the 
hearing with them that day--``believe in the Russian people. We believe 
in the future of Russia. Well, the future of Russia must be a nation 
that embraces its commitments under the Helsinki Final Act. It has to 
be a country that shows compassion for its citizens and shows justice. 
Russia can do that today by doing what is right for Mr. Khodorkovsky 
and his co-defendant. Release them from prison; respect the private 
rights and human rights of its citizens. Russia then will be a nation 
that will truly live up to its commitment, to its people, to respect 
human rights and democratic principles.''
    I don't know any way to say it anymore concisely or in a manner to 
convey why it is that the United States Commission on Security and 
Cooperation in Europe continues to put a lamp on this particular trial, 
show trial--shameless trial--and will continue our efforts in that 
regard in the future, both in Russia, elsewhere around the world and 
here in the United States as well--lest you think we don't criticize 
this group from time to time when injustices occur. Please note that we 
do and will continue.
    You have my best wishes and I'm hopeful that you will stay as 
strong as you have been and I deeply, deeply appreciate Freedom House.
    Mr. Klyuvgant. Thank you.
    Mr. Hastings. Thank you.
    Mr. Parker. Thank you, Mr. Chairman.
    And thank you, Vadim, for a very moving and informative statement. 
We're certainly very grateful to be able to put you on the record here 
today.
    Over the years--over these trials since 2003--we have certainly 
heard from a number of very qualified people on the team. We certainly 
very honored here to have Anton Drel in attendance; Mr. Drel is the 
personal attorney--the first attorney to meet with him following his 
arrest in 2003.
    At this time, I would like to recognize my colleague Bobby Herman 
from Freedom House. Freedom House contacted us about this a month ago. 
We certainly were very happy and excited to hear that one, most 
importantly, Vadim, you would be here in town. I know when we met last 
year in Moscow, I was very much hoping that this would be possible. I'm 
very glad to see it come to fruition.
    We're certainly honored, in a sense share a podium with Freedom 
House. We go back to 1976; Freedom House goes back to 1941. Certainly 
quite pleased at the announcement of new executive director who happens 
to have been a recent, former and very active member of our commission. 
So we were very happy to have those wires crossed, as it were. I'd like 
to recognize you for a statement.
    Mr. Herman. Thank you very much, Kyle. I appreciate it.
    And the co-organizing that we did this time was great, because we 
co-organized, but you did all the work. So we like that.
    Let me thank you and offer a couple of comments on what is a very 
timely and important briefing. You've said, on behalf of Freedom House, 
where I'm the director of programs in support of fundamental rights and 
freedoms worldwide.
    The subject of this session is of particularly intense interest to 
us, because it focuses the attention on the critical question of 
whether a citizen of the Russian Federation is able to access justice 
to the extent guaranteed in the Russians' constitution.
    The case that we're discussing today is but one data point, albeit 
a high-profile one. The manner in which the defendant, Mr. 
Khodorkovsky, has been subjected to a barrage of new charges, 
deliberately timed to prolong his incarceration beyond the six years 
he's already served, has with good reason raised concerns in Russia and 
internationally about the sad state of the rule of law in present-day 
Russia.
    Last year, Russian President Dmitry Medvedev himself expressed 
concern about what he called legal nihilism in his country. He was 
right to raise it. Notwithstanding some modest gains in a few areas in 
reforming Russia's judicial system, the overall picture is quite grim.
    In Freedom House's annual survey of democratization in Central and 
Eastern Europe and the former Soviet Union, nations in transit, Russia 
continues to receive a low score for its legal framework and judicial 
independence for several reasons: The troubling lack of independence 
among judges, about which we've heard quite a bit, remains a serious 
shortcoming of the Russian legal system; political interference by 
high-level--high-level government officials is commonplace. There are 
numerous reliable reports of judges being pressured or coerced until 
rendering a particular decision and then generally conforming to 
Kremlin preferences.
    At the same time, the culture of impunity prevails in Russia. One 
manifestation of this is that the mastermind behind the murders of 
prominent Kremlin critics have yet to be brought to justice.
    The inability of the courts to enforce judgments is another 
systemic failure. Nearly half of the European Court of Human Rights 
judgments against Russia pertain directly to the failure to comply with 
the court's decisions. Pretrial detention often on baseless legal 
grounds is also a major weakness of Russia's judicial system--as was 
tragically highlighted by the death of Sergei Magnitsky last year. The 
use of torture or other forms of coercion to extract confessions from 
those in custody is wide spread.
    Delayed legal proceedings--the matter with which Mr. Klyuvgant is 
no doubt frustratingly familiar--is yet another obstacle to obtaining 
justice in contemporary Russia. Finally, the lack of public information 
about the court cases seriously erodes citizens' confidence in the 
judicial process.
    Legislation limiting the types of cases that go to jury trials has 
also moved in the wrong direction. The fact that, according to 
independent Russian research organizations, a full one-third of 
Russians believe that the current raft of charges brought against Mr. 
Khodorkovsky are political in nature--while another 50 percent say they 
don't have enough information to form an opinion--underscores the need 
for Russian authorities to be more, not less, transparent about the 
machinations of the legal system if anyone inside Russia or beyond its 
borders is to see it as a legitimate instrument of justice.
    Let me close by observing that it's too easy to criticize from 
afar. Mr. Klyuvgant works within the Russian legal system in an effort 
to obtain justice for his client. We've listened intently to his 
account of the challenges that that entails.
    Going forward, I think we share--we all share an interest in 
supporting those dedicated and courageous men and women in Russia who 
are working to establish the rule of law and to make the judicial 
process more transparent, accessible and fair.
    Thank you very much.
    Mr. Parker. Thank you, Bobby.
    The way we planned this briefing, we have a little bit of time, 
certainly, for some interactions, some audience questions. That's one 
of the features I like most about the briefing is we're able to get a 
little deeper into the topic. We are able to take public questions--
which, by the way, will be transcribed and printed in our official 
hearing record.
    Before we do that, I'd like to take a few comments and then open it 
up.
    One of the things I was quite happy to see come out in your 
testimony was the human cost, the human dimension of this trial. It is 
a legal process that's being carried out, but it has a real profound 
human cost, certainly on the families of Mr. Khodorkovsky and Lebedev 
and certainly others involved. That for us is really a priority.
    Here at the Helsinki Commission we have three dimensions as were 
set up in the Helsinki process: security dimension, the economic and 
cultural and the human dimension. But we were mandated by Congress, 
when we were set up, to focus on the human dimension.
    And also, just to mention that this is not just a domestic affair. 
This is not something that just concerns Russia. Attention to it cannot 
be construed as interference in internal affairs. As the Russians would 
say, ``kak ne stranno.'' The 1991 Moscow document that was unanimously 
agreed to by all the participating states in the OSCE enshrines that 
messages that human rights are of sufficient importance and attention. 
That this type of interest cannot be construed or dismissed as the old 
interference in internal affairs.
    This time of year, the OSCE usually holds the annual Human 
Dimension Implementation Meeting where everybody gets together in 
Warsaw, talks about how things were going last year, how commitments 
are being implemented. It's a large event, very interesting and lively, 
with lots of NGOs. It's also a forum where NGOs are able to speak on an 
equal basis with states. We line up in the morning and if the U.S. may 
be behind Freedom House or Tajikistan or whoever participates.
    This year, because we have a summit for the first time since the 
1999 Istanbul Summit, it has taken the form a review conference. I 
believe these issues--rule of law, access to justice--will be discussed 
on Monday, October 4th. I certainly expect the Yukos case and situation 
involving because it's obviously the case against Yukos oil, the 
conflict in The Hague and then there's also the personal prosecution 
of--might even say persecution of Khodorkovsky and Platon Lebedev.
    One other thing I wanted to mention just along the lines of the 
human cost. One of my favorite pieces on this whole case, in the many 
years it's been written about, is an interview that Khodorkovsky did 
through an exchange of letters with Boris Akunin of the Russian 
Esquire.
    I continue to go back to this piece and just mine it for the very 
moving, again, illustration of the human cost of it. Also, in a sense, 
the remarkable--the transformation, as it were, of Mikhail Borisovich 
from Russia's richest oligarch--someone who, as is commonly said, may 
have been no saint--to what appears to me as possibly the freest man in 
Russia: having had it all, having lost it all and remaining unbroken 
and being able to say those words that are really quite optimistic and 
almost seem incongruent with the situation.
    I remember when he was transferred to Matrosskaya Tishina for the 
beginning of his trial, there was a picture, carried in the newswires, 
as he got out of a cramped prison van--he gets out and he gives a smile 
to the cameras. It's not a cynical smile. It's not an in-your-face 
smile. It's a warm smile to his country. Just a couple quotes and then 
we can open it up to question-and-answer.
    Mikhail Borisovich says here, ``I could have left, but after 
Platon's arrest, I regarded it as a betrayal. At the end of the summer, 
I took a trip and said my good-byes to my colleagues who were already 
beyond the border, and returned to Russia.'' Akunin asked, were there 
minutes when you regretted that you hadn't left? A very human answer: I 
don't know. There are probably two modest answers. Yes, I regret it 
every day; no, I don't regret it, because having left, I would not be 
able to live.
    He's asked about his parents. And we have had the great privilege 
of meeting his mother when she was in town. ``For them, honor was 
always dearer than their own life, definitely, and maybe even mine. So 
here I had no doubts.'' He talks about his children. ``I very much hope 
that my children, too, knowing well since preschool that papa was in 
jail, will grow up understanding why I could not have done otherwise. 
My wife promises that she'll be able to explain this to them.''
    Another comment that struck me here: ``Scoundrels are often more 
successful than decent people, but are they happier? That's the 
question. If they were happier, then we'd be living among nothing but 
scoundrels. In the world would triumph strength and meanness, but it's 
not at all like that after all. Strength loses out to courage, meanness 
to honesty, hatred to love--not at first, but always in the end. The 
world becomes a better place.''
    And he talks about what's going on. ``What is taking place is the 
advancement of the whims of the ones projecting downwards and into 
society their distorted moral principles. Well, what can you say about 
them? Pitiful, miserable people who, in their old age, will be scared 
of death.''
    These, to me, are just profoundly moving words from someone who is, 
on one level, a vulgar businessman, in the business of making money. 
What could be more crass, particularly in the crazy '90s in Russia? And 
yet, they sound similar to a Russian literary thinker, to someone who--
circumstances, history, fate has chosen him for a different role. He's 
in good company, frankly, having sat--as the Russians say--in Siberia.
    Again, I'm very struck by it and I think it's possibly one of the 
most interesting aspects of this case. To me, it's far more interesting 
than rebutting ridiculous, absurd legal charges, particularly in the 
second case. I know, obviously, Vadim, you have to litigate those 
absurdities, so you must get involved in that drudgery.
    But I'll just finish on this vein, to quote the famous words of a 
beloved Russian Silver Age poet, Anna Akhmatova, and her ``Requiem'' 
that was written around the crucible and the tragedy and the nightmare 
of the Stalin era. Her son, Lev Gumilyov, was imprisoned. To me, 
there's so much, sort of, appropriate in this comment that begins 
``Requiem'': ``Not under foreign skies, not under foreign wings 
protected. I shared all this with my own people, there where misfortune 
had abandoned us.''
    It's obviously far more beautiful in Russian, but I think of a 
Mikhail Borisovich who doesn't leave Russia and wage a proxy war from a 
foreign country, who returns and faces his fate with his people, 
through severe, turbulent and difficult years. With that, I don't want 
to take any more time that we have for question and answer. I'd like to 
open it up to anything--comments, questions. Josh, you said there's a 
mike. If you could come up to the mike, that would make it easier for 
the transcribers. Who wants to start?
    If no one has a question, I will start with a question. I wonder 
what your take is on this--is there any sense or any speculation on the 
part of the architects of this fiasco that maybe it was a mistake? That 
the damage to Russia's reputation has been too big and we're beginning 
to have someone who is unbroken, is not admitting guilt. It makes it 
difficult even to pardon him. Or is this not the case, and will there 
be more? Could Luzhkov be next? Could Medvedev be next?
    Mr. Klyuvgant. I can say the following. We have no doubt whatsoever 
that there is quite a number of individuals among the Russian 
authorities, in the Russian government, who understand that this was a 
tragic, huge mistake, and one that needs to be amended and rectified 
anonymous individuals who make the final decision.
    These individuals cannot make a decision themselves, but they are 
in a position to help the president make the decision, should the 
president wish to receive their help. As far as the actual architects 
of this situation, you're exactly right. We are not in touch with them, 
but there is indirect evidence that even among them, there is not as 
much cohesion as there was two or three years ago, let alone seven 
years ago.
    As far as the pipeline goes, I have no intention to try and 
forecast the future. What I can say is that in a situation where an 
individual cannot find justice in his or her own country, the judicial 
system is such that anybody and everybody can be next. It also means 
that people are not free and do not feel free when they live in such a 
society like that, and with a government like that, because they are 
driven by fear. People who are not free cannot engage in genuine 
modernization.
    Mr. Parker. Thank you. We have probably 20 minutes. I will offer 
another question because I have quite a few. As I imagine what it must 
be like to defend a client like Mikhail Borisovich, have you faced any 
type of harassment in Russia?
    Obviously, it's very high-profile, so the other question is, as an 
attorney, I assume it must be impossible for you to plot out a 
confidential legal strategy with your client. You can't go through a 
walk-talk with him. Is there anything that might be able to, sort of, 
shed some light for us on the daily grind of representing what the 
Moscow Times called Medvedev's Sakharov?
    Mr. Klyuvgant. Sorry, what was the point about Medvedev's Sakharov?
    Mr. Parker. Well, I said, representing a client who was called, a 
year or so ago in the Moscow Times, Russia's most famous political 
dissident.
    Mr. Klyuvgant. Thank you for this question. There was a USSR movie 
where a school student, a boy wrote that, quote, ``happiness is when 
they understand you,'' unquote. In that sense, I feel happy right now, 
which almost sums up the entire answer to your question.
    I don't think it would be appropriate to go into any kind of detail 
as to the difficulty of attorneys working with their clients. This 
having said, we--and I am referring to all members of the team--have 
been subject to pressure and harassment. Unfortunately, some of the 
members of the team cannot even live in their own country.
    And we, of course, also understand that as we interact with our 
clients, sometimes there are more than two parties to the dialogue. The 
results of this invisible hand, this invisible presence, are very 
obvious because not infrequently, in the court room, the prosecutors 
will hint at or will simply show very clearly that they are informed of 
our meetings with our clients, and the substance of those meetings that 
we have with our clients, even though they were not there, or only as a 
fly on the wall.
    And as far as Medvedev's Sakharov, or Sakharov of the Medvedev era, 
at the Matrosskaya Tishina prison, where Khodorkovsky is being held, 
there is no telephone in his cell, either landline or a cell phone. 
Should Medvedev wish to make a phone call to Khodorkovsky, as Mikhail 
Gorbachev once famously made a phone call to Sakharov, I believe the 
nanotechnology in question will come in very handy and make such a 
phone call feasible.
    And if he can get through to Khodorkovsky on the phone, I will be 
happy to answer the call and act as a go-between and make sure that 
they connect. There's just one small problem, and that is that this 
phone call should actually be made. I think that for that to happen, 
President Medvedev needs help and assistance.
    Mr. Parker. Well, we know Russia is a leader in nanotechnology, 
so--anyone else? Ron, please?
    Mr. McNamara. Thank you very much. Ron McNamara with the Helsinki 
Commission. It seems as though there are many dimensions to Mr. 
Khodorkovsky's case, and can be looked at from many different levels. 
Certainly it has been pledged never to forget the truly human 
dimension, as has been touched on here.
    In a certain sense, it might be easily dismissed as sort of a 
political vendetta, if you will, by certain powers that be that for 
whatever reason may have received Mr. Khodorkovsky's support of certain 
elements of Russian society as potentially a threat.
    There was a mention made regarding the lawsuits of investors in 
Yukos, and I guess I want to raise the maybe indelicate question, 
because one thing I've learned from working on Capitol Hill for 30 
years is that when you're dealing with people in society, when there is 
money involved, people pay attention very quickly. Obviously, we're 
talking about huge sums in the case of your client's potential foreign 
business.
    So who has really benefited in a financial sense from the legal 
pursuit and hounding of your client? And while we see President 
Medvedev and Prime Minister Putin going through sort of the normal 
functions of their offices, it seems to me, it strikes me, as though 
they're involved in a lot of other transactions and things of that 
nature, and perhaps their modest financial-disclosure statements don't 
quite reveal the true attitude of the wealth and resources that they 
have been able to accumulate while serving in the public sphere in the 
Russian Federation. I realize it's somewhat indelicate, but why not?
    Mr. Klyuvgant. Actually, this is not such a hard question to answer 
because there are facts that suggest an answer, and those facts are 
well known. The bulk of what was taken away from Yukos and the 
individual shareholders, all ended up in one place. That place is known 
as the Rosneft Company--because chairman of the board is Mr. Igor 
Sechin, who, at the time the prosecution was just beginning, was deputy 
chief of staff of the Russian president, and these days he is deputy 
chairman of the Russian government.
    So Rosneft Oil Company, which has since emerged as Russia's largest 
primarily because of the Yugos assets that it inherited, wanted to give 
official statements by Russian government officials. This company is 
now being scheduled for privatization. To what it extent it will be 
privatized has not been announced. However, the fact that it will be 
privatized is beyond doubt at this point.
    I am not going to set out the dominoes any further in this logical 
game And as far as misreporting personal income, I've just read today, 
in a matter of fact, in news, that the Russian president has sacked a 
Russian general exactly for that, for lying on his resume. So I guess 
if that is the general happened to be the person that this kind of 
sacking practice had started with, apparently he must have been a most 
dishonest individual. But then of course, it suggests that I am 
thinking is possible, because I don't really have backstory there.
    If I were to be more serious, I would simply say that we have yet 
to find out a lot of information and facts about this, especially on 
transparent aspect of the Yugos case that you had just asked a question 
about.
    Mr. McNamara. Thank you. I certainly would like to thank everybody 
for coming, and Vadim, it has certainly been a real pleasure to have 
you here. We receive you with great pleasure. This is obviously a very 
important case, it's a historic case for the development of modern 
Russia. I am not so optimistic about Washington's leverage or ability 
to affect the outcome of the case. Maybe I'm wrong, maybe it doesn't 
matter, maybe somehow, as you said, it can end justly.
    But certainly, for our part, we will tell the story for the record, 
and I can assure you that this commission will not forget your client 
and the importance of this whole. So with that, the briefing is 
adjourned.

                                     [all]
                                     
                                     
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
